No. 20-928
IN THE

Supreme Court of the United States
NATIONAL COALITION FOR MEN, JAMES LESMEISTER,
AND ANTHONY DAVIS,

v.

Petitioners,

SELECTIVE SERVICE SYSTEM AND DONALD BENTON,
AS DIRECTOR OF SELECTIVE SERVICE SYSTEM,
Respondents.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
CERTIFICATE OF COMPLIANCE
I am a member of the Bar of this Court, and as required by Supreme Court
Rule 33.1(h), I certify this 11th day of February 2021, that the Brief of the Modern
Military Association of America, Service Women’s Action Network, Protect Our
Defenders, Reserve Organization of America, and Enlisted Association of the
National Guard of the United States as Amici Curiae Supporting Petitioners
contains 5,949 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

____________________________
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
February 11, 2021

Counsel of Record for Amici Curiae

2

